Nos. 20-830, 20-831

In The

Supreme Court of the United States
THE STATE OF WASHINGTON,
Petitioner,
vs.
SAID OMER ALI,
Respondent,
THE STATE OF WASHINGTON,
Petitioner,
vs.
ENDY DOMINGO-CORNELIO,
Respondent.
On Petitions for Writs of Certiorari
to the Washington State Supreme Court
MOTION FOR LEAVE TO FILE AND
BRIEF AMICUS CURIAE OF THE
CRIMINAL JUSTICE LEGAL FOUNDATION
IN SUPPORT OF THE PETITIONS FOR
WRITS OF CERTIORARI
KENT S. SCHEIDEGGER
KYMBERLEE C. STAPLETON
Counsel of Record
Criminal Justice Legal Fdn.
2131 L Street
Sacramento, CA 95816
(916) 446-0345
briefs@cjlf.org
Attorneys for Amicus Curiae
Criminal Justice Legal Foundation

QUESTIONS PRESENTED
1. Whether Graham v. Florida and Miller v.
Alabama require an individual proportionality determination before imposing any sentence on a juvenile
offender convicted in adult court.
2. Whether Miller strips state legislatures of all
authority to set minimum sentences for any under-18
defendant for any crime.

(i)

In The

Supreme Court of the United States
THE STATE OF WASHINGTON,
Petitioner,
vs.
SAID OMER ALI,
Respondent,
THE STATE OF WASHINGTON,
Petitioner,
vs.
ENDY DOMINGO-CORNELIO,
Respondent.
MOTION OF AMICUS CURIAE FOR LEAVE
TO FILE BRIEF IN SUPPORT OF THE
PETITIONS FOR WRITS OF CERTIORARI

Pursuant to Supreme Court Rule 37.2(b), the
Criminal Justice Legal Foundation (CJLF)1 respectfully
moves for leave to file the accompanying brief amicus
curiae in support of the petitions in these cases. Counsel
for both petitioners have consented. Counsel of record

1. Counsel of record for all parties received notice at least 10 days
prior to the due date of the amicus curiae’s intention to file this
brief.
No counsel for a party authored this brief in whole or in part,
and no counsel or party made a monetary contribution
intended to fund the preparation or submission of this brief.
No person other than amicus curiae CJLF made a monetary
contribution to its preparation or submission.

iv

for respondent Said Omer Ali has withheld consent, and
counsel of record for respondent Endy DomingoCornelio has not responded to our request for consent.
INTEREST OF AMICUS CURIAE
CJLF is a non-profit California corporation organized to participate in litigation relating to the criminal
justice system as it affects the public interest. CJLF
seeks to bring the constitutional protection of the
accused into balance with the rights of the victim and of
society to rapid, efficient, and reliable determination of
guilt and swift execution of punishment.
In this case, the needless expansion of Eighth
Amendment precedents to overturn sentences of less
than life imprisonment for vicious, violent crimes is
contrary to the interests CJLF was formed to protect.
For the foregoing reasons, amicus requests leave to
file its brief.
January, 2021
Respectfully submitted,
KYMBERLEE C. STAPLETON
Attorney for Amicus Curiae
Criminal Justice Legal Foundation

TABLE OF CONTENTS
Questions presented. . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Motion for leave to file. . . . . . . . . . . . . . . . . . . . . . . . . iii
Interest of amicus curiae. . . . . . . . . . . . . . . . . . . . . . . iv
Table of authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . vi
Brief of amicus curiae. . . . . . . . . . . . . . . . . . . . . . . . . 1
Summary of facts and case.. . . . . . . . . . . . . . . . . . . . . 1
Summary of argument. . . . . . . . . . . . . . . . . . . . . . . . . 5
Argument. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I. The Washington Supreme Court’s expansion of
both Graham and Miller so as to encompass all
sentences imposed on juveniles prosecuted in adult
court goes too far.. . . . . . . . . . . . . . . . . . . . . . . . . . . 6
A. Narrow proportionality principle. . . . . . . . . . 6
B. Juveniles in adult court. . . . . . . . . . . . . . . . . . 7
C. Nonhomicide vs. homicide. . . . . . . . . . . . . . . 10
II. Victims of juvenile crimes are often pushed to
the wayside. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
III. This Court’s intervention is particularly
necessary when the federal Constitution is misused
to nullify a valid state statute.. . . . . . . . . . . . . . . . 19
Conclusion.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

(v)

vi

TABLE OF AUTHORITIES
Cases
Atkins v. Virginia, 536 U. S. 304 (2002). . . . . . . . . . 11
Brown v. Allen, 344 U. S. 443 (1953). . . . . . . . . . . . 20
California v. Greenwood, 486 U. S. 35 (1988). . . . . 20
Chisholm v. Georgia, 2 U. S. 419 (1793).. . . . . . . . . 20
Collins v. Youngblood, 497 U. S. 37 (1990). . . . . . . . 5
Eddings v. Oklahoma, 455 U. S. 104 (1982). . . . . . 13
Ewing v. California, 538 U. S. 11 (2003). . . . . . . . . . 6
Graham v. Florida, 560 U. S. 48
(2010). . . . . . . . . . . . . . . . . . . . . . . 3, 9, 10, 11, 12, 13
Harmelin v. Michigan, 501 U. S. 957
(1991). . . . . . . . . . . . . . . . . . . . . . . . 6, 7, 9, 10, 11, 13
Hutto v. Davis, 454 U. S. 370 (1982). . . . . . . . . . . . . 14
In re Duncan, 139 U. S. 449 (1891). . . . . . . . . . . . . . 23
In re Pers. Restraint of Ali, 196 Wash. 2d 220,
474 P. 3d 507 (2020). . . . . . . . . . . . . . . . . 1, 2, 4, 5, 9
In re Pers. Restraint of Domingo-Cornelio,
196 Wash. 2d 255, 474 P. 3d 524 (2020). . . . . . . 2, 3
Johnson v. Texas, 509 U. S. 350 (1993). . . . . . . . . . 13
Kahler v. Kansas, 589 U. S. __, 206 L. Ed. 2d 312,
140 S. Ct. 1021 (2020).. . . . . . . . . . . . . . . . . . . . . . . 7
Kansas v. Carr, 577 U. S. 108 (2016). . . . . . . . . 19, 23

vii

Kennedy v. Louisiana, 554 U. S. 407 (2008).. . . . . . 11
Michigan v. Long, 463 U. S. 1032 (1983). . . . . . 19, 22
Miller v. Alabama, 567 U. S. 460
(2012). . . . . . . . . . . . . . . . . . . . . . . . 3, 8, 9, 10, 12, 13
Morris v. Slappy, 461 U. S. 1 (1983). . . . . . . . . . . . . 14
National Federation of Independent Business v.
Sebelius, 567 U. S. 519 (2012). . . . . . . . . . . . . . . . 20
Ohio ex rel. Bryant v. Akron Metropolitan Park
District, 281 U. S. 74 (1930). . . . . . . . . . . . . . . . . . 23
Oostra v. Holstine, 86 Wash. App. 536, 541,
937 P. 2d 195 (1997). . . . . . . . . . . . . . . . . . . . . . . . 18
Pollock v. Farmers’ Loan & Trust Co., 158 U. S. 601
(1895). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Roper v. Simmons, 543 U. S. 551 (2005). . . . . 3, 8, 11
Rummell v. Estelle, 445 U. S. 263 (1980). . . . . . . . . 14
Scott v. Sandford, 60 U. S. (19 How.) 393
(1857). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Smith v. City of Jackson, 544 U. S. 228 (2005). . . . 20
State v. Ali, 2010 Wash. App. LEXIS 2080
(2010). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15, 16
State v. Houston-Sconiers, 188 Wash. 2d 1,
391 P. 3d 409 (2017). . . . . . . . . . . . . . . . . . 3, 4, 6, 10
State v. Watkins, 191 Wash. 2d 530, 423 P. 3d 830
(2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Sugarman v. Dougall, 413 U. S. 634 (1973).. . . . . . 20

viii

United States Constitution
U. S. Const., Art. IV, § 4. . . . . . . . . . . . . . . . . . . . . . . 22
U. S. Const., Art. V. . . . . . . . . . . . . . . . . . . . . . . . . . . 21
United States Statute
28 U. S. C. § 2254(d). . . . . . . . . . . . . . . . . . . . . . . . . . 22
State Constitutions
Cal. Const., Art. VI, § 16(a). . . . . . . . . . . . . . . . . . . . 21
Wash. Const., Art. I, § 35. . . . . . . . . . . . . . . . . . . . . . 18
Wash. Const., Art. XXIII, § 1. . . . . . . . . . . . . . . . . . . 21
State Statutes
Wash. Rev. Code § 7.69.030. . . . . . . . . . . . . . . . . . . . 18
Wash. Rev. Code § 7.69A.030. . . . . . . . . . . . . . . . . . . 18
Wash. Rev. Code § 9.94A.533(4)(e). . . . . . . . . . . . . . . 2
Wash. Rev. Code § 13.04.030(1)(e)(v)(A)-(C). . . . . . . 8
Secondary Authorities
Dept. of Justice, Bureau of Justice Statistics,
H. Snyder, Sexual Assault of Young Children as
Reported to Law Enforcement: Victim, Incident,
and Offender Characteristics (2000). . . . . . . . . . . 18
Hall, M., & Hall, J., The Long-Term Effects
of Childhood Sexual Abuse:
Counseling Implications (2011),
https://www.counseling.org/docs/disaster-and-

ix

trauma_sexual-abuse/long-term-effects-ofchildhood-sexual-abuse.pdf.. . . . . . . . . . . . . . . . . . 17
Lerner, Sentenced to Confusion: Miller v. Alabama
and the Coming Wave of Eighth Amendment Cases,
20 Geo. Mason L. Rev. 25 (2012). . . . . . . . . . . . . . 12

In The

Supreme Court of the United States
THE STATE OF WASHINGTON,
Petitioner,
vs.
SAID OMER ALI,
Respondent,
THE STATE OF WASHINGTON,
Petitioner,
vs.
ENDY DOMINGO-CORNELIO,
Respondent.
BRIEF AMICUS CURIAE OF THE
CRIMINAL JUSTICE LEGAL FOUNDATION
IN SUPPORT OF THE
PETITIONS FOR WRITS OF CERTIORARI

SUMMARY OF FACTS AND CASE
Ali.
In 2008, 16-year-old Said Omer Ali was found guilty
of five counts of robbery in the first degree, two counts
of attempted robbery in the first degree, and one count
of assault in the first degree stemming from his participation in a series of attacks and robberies. In re Pers.
Restraint of Ali, 196 Wash. 2d 220, 226, 474 P. 3d 507,
511 (2020). Two of the robbery counts and the assault
count carried a deadly weapon enhancement. Ibid. Ali

2

was tried as an adult and convicted by a jury on all
charges. Ibid.
The standard adult sentence range was between 20
to 26.5 years plus 2 years for each of the three weapons
enhancements. Id., at 227, 474 P. 3d, at 511. With the
weapons enhancements added to be run consecutively
to the base term, the standard sentencing range was
between 26 to 32.5 years. Ibid.; Wash. Rev. Code
§ 9.94A.533(4)(e).
The state recommended the highest possible sentence of 32.5 years, while Ali’s attorney requested an
exceptional sentence of 10 years. At sentencing, Ali
presented mitigating testimony regarding his youth and
difficult family background. Ali, 196 Wash. 2d, at 227228, 474 P. 3d, at 511. The court imposed a sentence of
26 years, which encompassed the lowest possible base
sentence permissible (20 years) plus the mandatory
enhancements (6 years) added. Id., at 228-229, 474
P. 3d, at 512. Ali’s judgment and sentence became final
in 2011 after an unsuccessful appeal. Id., at 229, 474
P. 3d, at 512.
Domingo-Cornelio.
In 2014, Endy Domingo-Cornelio was convicted by
a jury of one count of first-degree rape of a child and
three counts of child molestation. In re Pers. Restraint
of Domingo-Cornelio, 196 Wash. 2d 255, 259-260, 474
P. 3d 524, 526-527 (2020). He was charged as an adult
for the crimes that took place over a two-year period
when he was between the ages of 15 to 17 years old.
Ibid.
Under Washington law, the standard adult sentence
range he could receive was between 20 and 26.5 years.
At sentencing, the state recommended the highest
possible sentence of 26.5 years followed by 3 years of

3

community custody. Id., at 260, 474 P. 3d, at 527.
Domingo-Cornelio’s attorney requested the lowest
possible sentence of 20 years. His attorney did not
request that the court impose an exceptional downward
sentence. Ibid. The court imposed the lowest possible
sentence of 20 years with 3 years of community custody
supervision upon his release. Id., at 261, 474 P. 3d, at
527. Domingo-Cornelio’s judgment and sentence
became final in 2016 after an unsuccessful appeal. Id.,
at 262, 474 P. 3d, at 527.
After both Ali and Domingo-Cornelio’s convictions
became final, the Washington Supreme Court decided
State v. Houston-Sconiers, 188 Wash. 2d 1, 391 P. 3d
409 (2017). In Houston-Sconiers, two juvenile defendants were tried as adults and convicted of multiple
crimes, which included first-degree robbery, plus
firearm enhancements. Id., at 12, 391 P. 3d, at 415.
Both defendants faced long adult standard range
sentences as calculated under Washington’s Sentencing
Reform Act of 1981 (“SRA”). Id., at 8, 391 P. 3d, at 414.
They also faced multiple mandatory firearm sentence
enhancements that were to be run consecutive to each
other without the possibility of early release. Ibid.
The Washington Supreme Court overturned their
sentences on appeal on the basis that this Court’s
opinions in Roper v. Simmons, 543 U. S. 551 (2005),
Graham v. Florida, 560 U. S. 48 (2010), and Miller v.
Alabama, 567 U. S. 460 (2012), require it to recognize
that “children” are to be treated differently from
adults for sentencing purposes. Houston-Sconiers, 188
Wash. 2d, at 18-22, 391 P. 3d, at 418-420. The Washington Supreme Court held that “sentencing courts
must have complete discretion to consider mitigating
circumstances associated with the youth of any juvenile
defendant....” Id., at 21, 391 P. 3d, at 420. The court
further held that compliance with the Eighth Amend-

4

ment requires trial courts to “consider mitigating
qualities of youth at sentencing and [trial courts] must
have discretion to impose any sentence below the
otherwise applicable SRA range and/or sentence enhancements.” Ibid.
In 2017, both Ali and Domingo-Cornelio sought
collateral review of their sentences by filing personal
restraint petitions (“PRP”) in the Washington Court of
Appeals pursuant to Washington Rules of Appellate
Procedure 16.4. Both argued that Houston-Sconiers
constituted a significant change in substantive law
relating to juvenile sentencing and that they were
entitled to retroactive relief. Pet. for Cert. 11-12 (“Ali
Petition”); Pet. for Cert. 10-11 (“Domingo-Cornelio
Petition”).
Ali’s judgment and sentence became final more than
a year earlier, so Ali had to satisfy a statutory exception
to the time bar rule. The Washington Supreme Court
found that he satisfied the exception and held his PRP
to be timely. Ali, 196 Wash. 2d, at 242, 474 P. 3d, at
518.
In Ali, the Washington Court of Appeals transferred
his PRP to the Washington Supreme Court as a successive petition raising new grounds for relief. Ali, 196
Wash. 2d, at 229, 474 P. 3d, at 512. The Washington
Supreme Court then considered Ali’s PRP on the
merits. Ibid. In Domingo-Cornelio, the Washington
Court of Appeals denied relief after concluding that
Houston-Sconiers did not “constitute a significant
change in the law” that would entitle him to relief. App.
to Domingo-Cornelio Petition 61a-62a. The Washington Supreme Court granted review and considered it
along with Ali’s petition. Ali, 196 Wash. 2d, at 229, 474
P. 3d, at 512.

5

The Washington Supreme Court held that HoustonSconiers was retroactive on collateral review. Ibid. The
State seeks review of the merits in both cases, bypassing the retroactivity question. See Collins v. Youngblood, 497 U. S. 37, 40-41 (1990).
SUMMARY OF ARGUMENT
The general rule as established by the precedents of
this Court for evaluating Eighth Amendment challenges
to a term-of-years sentence is one of “narrow proportionality.” Graham and Miller carved out two limited
categorical exceptions to this general rule as applied to
juveniles facing a sentence of life without the possibility
of parole. The Washington Supreme Court
impermissibly expanded Graham and Miller’s limited
exceptions to encompass any sentence imposed upon a
juvenile in adult court. Because Graham and Miller are
limited to life-without-parole sentences, any lesser
term-of-years sentence that is not adjudged to be
“grossly disproportionate” is constitutionally sound and
is purely a matter of legislative prerogative.
The people of Washington have a compelling interest
in protecting crime victims and decided that they
wanted tougher sentencing laws for those convicted of
armed crimes and sex offenses. The Washington Supreme Court’s invocation of the Eighth Amendment to
completely strip their state legislature of the authority
to set a minimum sentence for any crime committed by
a juvenile is erroneous and must not be left unchecked
by this Court.

6

ARGUMENT
I. The Washington Supreme Court’s expansion
of both Graham and Miller so as to encompass
all sentences imposed on juveniles prosecuted
in adult court goes too far.
The Washington Supreme Court’s unprecedented
constitutional mandate that compels trial courts to
make an individualized proportionality determination
before imposing any sentence on a juvenile that the
court deems fit erroneously expands upon this Court’s
Eighth Amendment “narrow proportionality” jurisprudence. To hold that the Eighth Amendment requires
that “sentencing courts must have absolute discretion
to depart as far as they want below otherwise applicable
SRA ranges ...,” Houston-Sconiers, 188 Wash. 2d, at 9,
391 P. 3d, at 414, grossly overstates this Court’s holdings as to what the Eighth Amendment actually requires. In effect, the court held that the Eighth Amendment completely strips the Washington Legislature of
all authority to set mandatory minimums for any
under-18 defendant for any crime. Certiorari should be
granted so that this Court can apply the breaks to the
runaway train upon which the Eighth Amendment’s
Cruel and Unusual Punishments Clause sits.
A. Narrow Proportionality Principle.
When a term-of-years sentence in a non-capital case
is being challenged on Eighth Amendment grounds, the
general rule as established by this Court simply requires that there be “narrow proportionality” between
the sentence imposed and the crime committed. Harmelin v. Michigan, 501 U. S. 957, 997 (1991) (Kennedy, J.,
concurring in part and concurring in judgment); Ewing
v. California, 538 U. S. 11, 20 (2003). This deferential
standard is designed to provide state legislatures with

7

great leeway to not only define crimes but also how to
best punish their criminal offenders. See Harmelin,
supra, at 998, 1001.
The notion that any reduced culpability sweeps
away the considerations of federalism and the separation of powers was refuted just last term in Kahler v.
Kansas, 589 U. S. __, 140 S. Ct. 1021, 1037, 206
L. Ed. 2d 312, 332-333 (2020). “Across both time and
place, doctors and scientists have held many competing
ideas about mental illness.... Formulating an insanity
defense also involves choosing among theories of moral
and legal culpability, themselves the subject of recurrent controversy.” Id., 140 S. Ct., at 1037, 206
L. Ed. 2d, at 332. Consequently, it is for legislatures,
not courts, to deal with changing and competing theories, both scientific and philosophical. “ ‘[F]ormulating
a constitutional rule would reduce, if not eliminate, [the
States’] fruitful experimentation, and freeze the developing productive dialogue between law and psychiatry
into a rigid constitutional mold.’ ” Ibid. (quoting Powell
v. Texas, 392 U. S. 514, 536-537 (1968)).
What Kahler said of mental illness is equally true of
youth.
B. Juveniles in Adult Court.
Every state has a prescribed mechanism by which
some juvenile offenders are prosecuted as adults. In
Washington, the juvenile court system is a creature of
statute, and juveniles possess no constitutional right to
be tried in juvenile court. State v. Watkins, 191
Wash. 2d 530, 538, 423 P. 3d 830, 834 (2018). Similar to
all 50 states, the Washington State Legislature made a
policy determination that some individuals under age
18 who commit very serious and/or violent crimes
would not benefit from the treatment programs and
services that are central to the juvenile court system.

8

See Wash. Rev. Code § 13.04.030(1)(e)(v)(A)-(C) (automatic decline statute).
Ali’s multiple counts of robbery with deadly weapon
enhancements and Domingo-Cornelio’s child rape
charges are examples of offenses committed by juveniles
that the Washington Legislature has decided are
deserving of adult court jurisdiction, which includes
adult court sentencing.
The Washington Legislature is no doubt cognizant
of the constitutionality of certain juvenile sentencing
practices as dictated by this Court. Law draws the
“bright line” of adulthood at age 18 not because the
“qualities that distinguish juveniles from adults”
disappear on an individual’s 18th birthday, but only
because “a line must be drawn” that can be broadly
applied. Roper v. Simmons, 543 U. S. 551, 574 (2005).1
For individuals under age 18, this Court’s precedents
differentiate between homicide offenses and nonhomicide offenses and the Eighth Amendment analysis for
evaluating the sentences imposed on juveniles for those
differing offenses are distinct.
It is well established that a juvenile homicide
offender cannot be sentenced to death. Roper, 543 U. S.,
at 574. However, as these cases demonstrate, imposing
any sentence on a juvenile offender other than death
has been a controversial and confusing subject. After
Roper, this Court decided a series of cases involving the
1. Although it is no doubt true that the “hallmark features” of
youth include immaturity, irresponsibility, vulnerability to
peer pressure, impulsivity, and less understanding of the consequences of their actions, see Miller, 567 U. S., at 477, to
broadly conclude that all individuals under age 18 as a whole
“cannot with reliability be classified among the worst
offenders” or that “their irresponsible conduct is not as morally
reprehensible as that of an adult” is ludicrous. Roper, 543
U. S., at 598-600 (O’Connor, J., dissenting).

9

constitutionality of juvenile sentencing practices other
than death. These cases carved out two overarching
exceptions to Harmelin’s narrow proportionality
principle in regard to sentencing juveniles. First, if a
juvenile commits homicide, then life without parole
(“LWOP”) is a constitutionally permissible sentence so
long as it is not automatically imposed. Miller v. Alabama, 567 U. S. 460, 474, n. 6 (2012). Second, if a
juvenile does not commit homicide, then LWOP is not
a constitutionally permissible sentence. Graham v.
Florida, 560 U. S. 48, 82 (2010).
Miller and Graham share a commonality that the
present cases do not—the sentence of LWOP. Because
only LWOP is prohibited, which has been described by
this Court as “the second most severe [penalty] known
to the law,” any lesser term-of-years sentence that is
not adjudged to be “grossly disproportionate” is constitutionally permissible and is within the province of a
state legislature to determine. See Harmelin, 501 U. S.,
at 996; id., at 1001 (Kennedy, J., concurring in part and
concurring in judgment); see also Graham, 560 U. S., at
75 (the Eighth Amendment does not require States to
release a juvenile “during his natural life”).
The Washington Supreme Court’s interpretation of
the Eighth Amendment in these cases is erroneous in
three respects. First, it erred by expanding Graham’s
categorical exclusion of LWOP in nonhomicide cases to
also encompass all standard range adult sentences and
enhancements. Ali, 196 Wash. 2d, at 232, 474 P. 3d, at
513.2 Second, the Washington Supreme Court

2. “Following Miller, Graham, and Roper, Houston-Sconiers
identified a category of sentences that are beyond courts’
authority to impose: adult standard SRA ranges and enhancements that would be disproportionate punishment for juveniles
with diminished culpability.” Ibid. (emphasis in original).

10

impermissibly imported Miller’s individualized sentencing requirement into the nonhomicide context. See
Houston-Sconiers, 188 Wash. 2d, at 23, 391 P. 3d, at
421. Miller’s individualized sentencing requirement
applies strictly to juveniles who commit homicide and
are facing a sentence of LWOP. Miller, 567 U. S., at
489. Third, the court completely stripped the legislature
of any authority to set a minimum sentence for any
crime committed by any perpetrator under 18, even by
a day.
Because this Court’s Eighth Amendment jurisprudence regarding the sentencing of juveniles differentiates between nonhomicide offenses (Graham) and
homicide offenses (Miller), both lines of precedent must
be discussed.
C. Nonhomicide vs. Homicide.
After Roper barred the imposition of the death
penalty for all juveniles under age 18, this Court was
asked in Graham to decide if sentencing a juvenile to
LWOP for a nonhomicide crime violates the Eighth
Amendment. 560 U. S., at 52-53. Terrance Graham was
a month short of his 18th birthday when he committed
a robbery for which he received a life sentence. Id., at
55-57. When analyzing Graham’s argument, this Court
recognized that its proportionality cases “fall within
two general classifications.” Id., at 59. The first involves
individual challenges to term-of-years sentences. Ibid.
The leading case identified by this Court as guiding the
analysis for these types of challenges is Harmelin v.
Michigan, 501 U. S. 957 (1991). See Graham, 560 U. S.,
at 59-60.
A fractured Court in Harmelin recognized that the
Eighth Amendment’s Cruel and Unusual Punishments
Clause “contains a ‘narrow proportionality principle,’
that ‘does not require strict proportionality between

11

crime and sentence’ but rather ‘forbids only extreme
sentences that are “grossly disproportionate” to the
crime.’ ” Graham, 560 U. S., at 59-60 (quoting Harmelin, 501 U. S., at 997, 1000-1001 (Kennedy, J., concurring in part and concurring in judgment)). If a rational
connection exists between the crime committed and the
sentence imposed for that crime, then the inquiry ends.
A great majority of proportionality challenges end here.
“[O]nly in the rare case in which a threshold comparison ... leads to an inference of gross disproportionality”
will the court engage in a more exacting inquiry based
on objective factors. Harmelin, 501 U. S., at 1001, 1005
(Kennedy, J., concurring in part and concurring in
judgment).
The second type of Eighth Amendment proportionality challenge recognized in Graham involves categorical
limits on certain sentencing practices. 560 U. S., at 5960. The inquiry under this second line of precedent
considers the nature of the crime committed in light of
the “characteristics of the offender.” See id., at 60. In
Graham, this Court was asked for the first time to
analyze the case under this second line of precedent to
categorically exclude a class of offenders (nonhomicide
juveniles) from receiving an LWOP sentence. Id., at 6162. Up until this point, categorical exclusions from
punishment under the Eighth Amendment for both
adults and juveniles had been limited to death sentences. See Kennedy v. Louisiana, 554 U. S. 407, 437438 (2008); Roper, 543 U. S., at 574; Atkins v. Virginia,
536 U. S. 304, 316-317 (2002).
Because the individual “sentencing practice” of
LWOP in and of itself as applied to all nonhomicide
juveniles was being challenged in Graham, and because
this Court “likened [LWOP] for juveniles to the death
penalty itself,” this Court agreed to analyze its constitutionality pursuant to the rules applicable to categorical

12

challenges. 560 U. S., at 61; Miller, 567 U. S., at 470.
This Court rejected the Harmelin approach only in that
context stating Harmelin was best “suited for considering a gross proportionality challenge to a particular
defendant’s sentence ....” Graham, supra, at 61.
Because Graham was considering a categorical
challenge, it examined culpability in light of the nature
of the crimes committed. 560 U. S., at 68-69. This Court
relied heavily on Roper and delved further into selective
studies on brain science and research into developmental psychology to again lump all juveniles into one
generic group of individuals with diminished culpability. Id., at 67-68.3 Despite the fact that 37 states, the
District of Columbia, and the Federal Government all
allowed LWOP for juvenile nonhomicide offenders,
Graham categorically excluded all juveniles who did not
commit homicide from being sentenced to LWOP. Id.,
at 74.
Graham’s holding is limited to LWOP sentences for
nonhomicide juveniles. The Washington Supreme Court
impermissibly expanded Graham’s holding outside of
the LWOP context. This impermissible expansion led to
the second way in which the Washington Supreme
Court erred—by importing Miller’s individualized
sentencing requirement into the nonhomicide, nonLWOP context.
In Miller, the two 14-year-old defendants were
convicted of murder. 567 U. S., at 465. State law
mandated they be automatically sentenced to LWOP

3. “Graham suffers from the faulty premise that juveniles who
commit heinous crimes are typical juveniles, and that they are
categorically less culpable than young adult offenders.”
Lerner, Sentenced to Confusion: Miller v. Alabama and the
Coming Wave of Eighth Amendment Cases, 20 Geo. Mason
L. Rev. 25, 26 (2012).

13

upon their convictions and in neither case did a judge or
jury have the discretion to impose a lesser punishment.
Ibid. Both defendants argued that the mandatory
nature of their states’ LWOP sentencing schemes
violated the Eighth Amendment’s Cruel and Unusual
Punishments Clause. Id., at 467. This Court agreed and
held that a mandatory LWOP sentence imposed upon a
convicted murderer under the age of 18 is considered
cruel and unusual. Id., at 465.
Miller was concerned that the mandatory sentencing
scheme provided no opportunity for a judge or jury to
consider youth as a mitigating factor and impose any
lesser punishment. Id., at 473-474. Although a mandatory LWOP scheme imposed on an adult does not run
afoul of the Eighth Amendment, see Harmelin, 501
U. S., at 996, Miller stated that the same cannot be true
when applied to juveniles. Miller then held that sentencing schemes that automatically sentence a juvenile
to LWOP without any opportunity to consider youth as
a mitigating factor violates the Eighth Amendment. 567
U. S., at 470.
The Miller Court built upon the reasoning and
analysis of both Roper and Graham, but unlike in those
two cases, did not categorically bar sentencing a teenage killer to LWOP. Only mandatory sentencing
schemes were held to be unconstitutional.
Miller recognized that Graham equated some
aspects of juvenile LWOP with death in that it “alters
the offender’s life by forfeiture that is irrevocable.” See
Graham, 560 U. S., at 69. Miller picked up on this
comparison and in turn implicated the line of cases
“demanding individualized sentencing when imposing
the death penalty.” 567 U. S., at 475; see also Johnson
v. Texas, 509 U. S. 350, 367 (1993); Eddings v. Oklahoma, 455 U. S. 104, 115-116 (1982).

14

Thus, only sentencing schemes that permit states to
seek a discretionary sentence of LWOP for juveniles
convicted of homicide are subject to Miller’s individualized proportionality rules where youth is constitutionally required to be considered as a mitigating factor. It
was error for the Washington Supreme Court to import
Miller’s strict proportionality analysis into the nonhomicide and non-LWOP context.
The Washington Supreme Court disregarded this
Court’s Eighth Amendment precedent and imposed its
own “subjective determination” to override legislatively
prescribed sentencing terms. See Hutto v. Davis, 454
U. S. 370, 373 (1982) (per curiam); Rummell v. Estelle,
445 U. S. 263, 275 (1980). This Court’s precedent “must
be followed ... no matter how misguided the judges of
the [lower] courts may think it to be.” Hutto, supra, at
375.
If the Washington Supreme Court’s impermissible
expansions of Graham and Miller are permitted to
proceed unchecked, it would eviscerate Harmelin’s
“narrow proportionality” jurisprudence as applied to all
juveniles who are subject to adult range sentences of
less than LWOP.
II. Victims of juvenile crimes are often
pushed to the wayside.
It is axiomatic that victims must always remain at
the forefront of the discussion. Morris v. Slappy, 461
U. S. 1, 14 (1983). The Washington Supreme Court
cases only provide a cursory look at the crimes committed by Ali and Domingo-Cornelio. A more detailed
description of their crimes helps shed light upon the
violent and serious offenses that they inflicted upon
their victims.

15

Ali.
Over a one-month period in the Spring of 2008, 16year-old Ali was part of a group of individuals who
participated in a string of armed robberies and assaults
in North Seattle, Washington. State v. Ali, 2010
Wash. App. LEXIS 2080, ¶ 2 (2010) (unpublished). Ali’s
first victim was Stephanie Martin. As Martin was out
walking during the early morning hours, five men in a
car drove by her and yelled in her direction. Id., ¶ 3.
They stopped the car and three individuals got out and
approached her, two of them from behind. Ibid. One of
the men pointed a knife at her, took her cell phone, and
shoved her into the bushes. Ibid. She screamed and the
individuals ran away. She later identified Ali as the
individual who pointed the knife at her face. Ibid.
Shortly after Ali and the others left Martin in the
bushes, they pulled their car alongside Carl Halliburton
and Jonathan Douglass, who were also walking down
the sidewalk in the early morning hours. Id., ¶ 4. As
Halliburton and Douglass attempted to seek safety from
the individuals by walking in a different direction, the
offenders’ car plus another car pulled into a nearby
parking lot. Ibid. Approximately 11 individuals exited
the two vehicles and they surrounded Halliburton and
Douglass demanding money. Ibid. The two men were
then viciously attacked. One of the attackers broke
Halliburton’s nose and stabbed him in the stomach
with a knife, while another attacker pulled out a pistol
and pointed it at both victims. Id., ¶ 5. The attackers
fled when the police approached the scene. The attackers stole Halliburton’s two cell phones, his coat, and his
house keys. Halliburton was taken to the hospital and
underwent surgery for a lacerated liver. He remained
hospitalized for five days. Id., ¶ 8. Ali was later described by Halliburton as the “ring leader” of the group.
Id., ¶ 6.

16

Approximately one week after the offenses against
Martin, Halliburton, and Douglass occured, Joshua
Longbrake and Mackenzie Rollins were walking together in the late night hours when they were approached by three individuals. Id., ¶ 9. One of the
individuals, later identified as Ali, pointed a gun at
Longbrake’s head and instructed the two of them to lie
down on the ground. The individuals then stole Longbrake’s wallet, cell phone, and jacket. Ali then struck
Longbrake in the head with the gun before fleeing the
scene. Ibid.
Approximately one hour after the attacks on Longbrake and Rollins, two individuals approached Katherine Terpstra in the University of Washington parking
lot and stole her purse. Id., ¶ 10. Terpstra screamed and
chased her assailants’ car. Several University police
officers heard Terpstra yelling and stopped a nearby car
with three individuals inside. Ibid. The front passenger
was identified as Ali. Terpstra’s purse was found in the
car. Ibid.
Nearly one month after the previous attacks, Colin
Walker was taking a walk in the early morning hours
when he was approached by two individuals. Id., ¶ 13.
One of the individuals, later identified as Ali, asked to
borrow Walker’s cell phone. Walker agreed. As Walker
waited, the other individual hit Walker in the head and
knocked him to the ground. Ibid. Both Ali and his
accomplice beat Walker until he was unconscious. They
then stole his backpack, computer, and cell phone. Ibid.
Walker suffered a concussion stemming from the
attack.
Domingo-Cornelio.
In late 2012, 8-year-old A.C. informed her mother
that she had been repeatedly sexually abused over a
two-year period by her older cousin, Domingo-Cornelio.

17

App. to Domingo-Cornelio Petition 18a . When A.C. was
four or five years old, Domingo-Cornelio would often
stay the night at her house. Id., at 23a-24a. Both A.C.
and Domingo-Cornelio would sleep on couches in the
front room of the house. This is where the abuse
occurred.
A.C. testified that Domingo-Cornelio would grab her,
touch her private parts, and make her touch his private
parts as well. Ibid. “Domingo-Cornelio also licked and
rubbed A.C.’s ‘private spot,’ which she identified as
what she used to go to the bathroom.” Domingo-Cornelio Petition 6. Domingo-Cornelio told A.C. not to tell
anyone of the abuse. App. to Domingo-Cornelio Petition
24a. A.C. complied with Domingo-Cornelio’s demands
and kept the abuse a secret.
As the abuse continued, young A.C. began “acting
out sexually with other children and adults.” Id., at 19a.
A.C.’s mother became concerned and asked her on
several occasions if she was being abused by anyone.
Id., at 24a. A.C. repeatedly told her mother that she was
not being abused. Ibid. It was not until two years after
the abuse commenced that A.C. overheard her mother
talking on the telephone regarding her suspicions that
A.C.’s father might be abusing her. It was at that point
that A.C. told her mother she was being abused and
that her abuser was not her father, but rather it was
Domingo-Cornelio. Id., at 22a.
“Childhood sexual abuse infringes on the basic
rights of human beings.... The nature and dynamics of
sexual abuse ... are often traumatic. When sexual abuse
occurs in childhood it can hinder normal social growth
and be a cause of many different psychosocial problems.” M. Hall & J. Hall, The Long-Term Effects of
Childhood Sexual Abuse: Counseling Implications 2

18

(2011).4 A.C. was only 4 or 5 years old when DomingoCornelio—her cousin—began to molest her and then it
continued for another two years. Among the cases of
child sexual abuse that are reported, 93% of the perpetrators are known to the victim. See Dept. of Justice,
Bureau of Justice Statistics, H. Snyder, Sexual Assault
of Young Children as Reported to Law Enforcement:
Victim, Incident, and Offender Characteristics 10
(2000). For victims under age 6, nearly half of the
sexual offenders are family members. Ibid.
The State of Washington has a compelling interest
in protecting all crime victims, regardless of age. See
Wash. Const., Art. I, § 35, Wash. Rev. Code § 7.69.030;
Wash. Rev. Code § 7.69A.030. The Washington State
Legislature declared that childhood sexual abuse is
especially problematic when it enacted legislation that
extended the statute of limitations for childhood sexual
abuse victims to bring civil actions against their perpetrators. See Oostra v. Holstine, 86 Wash. App. 536, 541,
937 P. 2d 195, 198 (1997) (detailing legislative intent).
The people of Washington decided that they wanted
tougher sentencing laws for those who commit armed
crimes and sex offenses. Ali was given a sentence of 26
years. Under Washington law, as amended after Miller,
he will be eligible for release after serving 20 years of
his sentence. Ali Petition 8. As pointed out in Washington’s Petition for Certiorari, Ali can apply for release
when he is 36 years old, and he will be released no later
than age 42. Ibid. Domingo-Cornelio was given the
lowest possible sentence of 20 years. Neither respondent was sentenced to anything near a lifetime in
prison. But rather, both respondents will have many
more years of life ahead of them when they are released
4. https://www.counseling.org/docs/disaster-and-trauma_sexualabuse/long-term-effects-of-childhood-sexual-abuse.pdf.

19

at the conclusion of their sentences. Their victims lives,
on the other hand, will be forever marked with the
trauma they were subjected to at the hands of these two
individuals.
As Petitioners accurately explain, granting certiorari
in these cases is imperative because the Washington
Supreme Court’s “unbridled expansion of the Eighth
Amendment tramples upon sovereign authority to
legislate policy regarding punishment. Washington’s
sweeping decisions are the extreme example of this,
wholly depriving the state legislature of the authority
substantively decide how to punish juvenile offenders in
adult court.” Ali Petition 14-15.
III. This Court’s intervention is particularly
necessary when the federal Constitution is
misused to nullify a valid state statute.
This is a case where the highest court of a State has
invoked the United States Constitution to impose a rule
for the benefit of convicted criminals that is contrary to
the statutes enacted through the democratic process. At
times, some Justices have suggested that this Court
should not use its limited resources to correct such
errors. See Michigan v. Long, 463 U. S. 1032, 1068
(1983) (Stevens, J., dissenting); Kansas v. Carr, 577
U. S. 108, 128-129 (2016) (Sotomayor, J., dissenting).5
On the contrary, Amicus CJLF submits that such cases
present particularly compelling grounds for this Court’s
review. Leaving such an error in place distorts the

5. Neither Long nor Carr involved declaring a state statute
unconstitutional, but the theory of both dissents would extend
to all state-court decisions overturning state criminal judgments on federal constitutional grounds, including those that
strike down statutes.

20

separation of powers within the government of the
State.
Within each level of government, state and federal,
we have a constitution, a legislative body, and a court of
last resort. The legislature and judiciary each have a
role in checking the other. The judiciary’s role in
checking the legislature is the best known and most
discussed, but the reverse is also important. Courts are
not infallible, and even in constitutional matters the
highest court is not always final. Cf. Brown v. Allen,
344 U. S. 443, 540 (1953) (Jackson, J., concurring).
For nonconstitutional questions, the legislature can
abrogate a judicial precedent by statute. See, e.g., Smith
v. City of Jackson, 544 U. S. 228, 240 (2005) (precedent
on disparate impact in civil rights cases modified by
statute). For constitutional questions, a constitutional
amendment is needed. The United States Constitution
is very difficult to amend by design, so amendments
abrogating this Court’s precedent are few, but there are
several. The Eleventh Amendment overturned Chisholm v. Georgia, 2 U. S. 419 (1793). The Citizenship
Clause of the Fourteenth Amendment overturned Scott
v. Sandford, 60 U. S. (19 How.) 393 (1857). See Sugarman v. Dougall, 413 U. S. 634, 652 (1973) (Rehnquist,
J., dissenting). Pollock v. Farmers’ Loan & Trust Co.,
158 U. S. 601, 618 (1895), was overturned by the
Sixteenth Amendment. See National Federation of
Independent Business v. Sebelius, 567 U. S. 519, 571
(2012).
Constitutional amendments are sometimes needed
for the same purpose in the states. In California in
1982, the state supreme court’s propensity to exclude
evidence of crimes on creative constitutional theories
was ended by abolishing the state exclusionary rule via
constitutional amendment. See California v. Greenwood, 486 U. S. 35, 44 (1988).

21

The legislature typically cannot amend the constitution alone but requires the concurrence of some other
authority. On the federal level, three fourths of the
States must agree through their legislatures or ratifying
conventions. See U. S. Const., Art. V. In States, the
people often vote directly on amendments proposed by
the legislature. See, e.g., Wash. Const., Art. XXIII, § 1.
Although amending the constitution to overturn a
judicial interpretation is a drastic measure, it is sometimes necessary. Courts can be wrong and occasionally
horribly wrong, as Scott v. Sandford illustrates beyond
dispute. Within each level of government, this weapon
of last resort serves a vital function in the system of
checks and balances.
However, there is a very different dynamic when a
state supreme court decides that a state statute violates
the United States Constitution. There is no direct check
on this power within the government of the state. A
state statute or constitutional amendment would have
no effect. The state’s representatives in Congress could
propose an amendment to the United States Constitution, but a problem affecting only one state or a handful
of states will not generate the critical mass needed for
that enormous effort.
In some states, removal of the judges by the people
is a possibility, but even in states that have open
elections or retention votes, judges often have long
terms that make such action impractical. See, e.g., Cal.
Const., Art. VI, § 16(a) (12 years). In states that have
opted against elections in order to provide their courts
with greater independence, there is no remedy by this
route at all.
There is no remedy in any other federal court. An
unreasonable state court decision going against a
criminal defendant might be overturned by a federal

22

district court or court of appeals in habeas corpus, see
28 U. S. C. § 2254(d), but there is no such remedy for an
equally unreasonable state court decision in the defendant’s favor.
So that leaves certiorari to this Court as the only
practical remedy. If this Court lets stand a state court
decision wrongly striking down a valid state statute on
a federal constitutional ground, a portion of the people’s
right to govern themselves through the democratic
process has been chipped away.
Arguing that this Court should not intervene in such
matters, Justice Stevens said, “the final outcome of the
state processes offended no federal interest whatever.
Michigan simply provided greater protection to one of
its citizens than some other State might provide or,
indeed, than this Court might require throughout the
country.” Michigan v. Long, 463 U. S., at 1068
(Stevens, J., dissenting) (emphasis added). The extreme
tunnel vision of this statement is breathtaking. The
case before the Court involved possession of marijuana,
but the rule Justice Stevens proposed was not limited
to “victimless crimes.” It would apply as well to violent
ones.6 Justice Stevens saw no federal interest in a case
where a murderer goes free because a state supreme
court blunders in its interpretation of the federal
Constitution, and where there is nothing the state’s
legislative and executive branches can do about it.
But there is a federal constitutional interest in the
people’s right of self-government. “The United States
shall guarantee to every State in this Union a Republican Form of Government ....” U. S. Const., Art. IV, § 4.
This section is focused on an actual overthrow of the

6.

The statement ignores the interests of victims of crime, a topic
discussed in Part II, supra.

23

state government, of course, and it does not by itself
raise judicial questions. See Ohio ex rel. Bryant v. Akron
Metropolitan Park District, 281 U. S. 74, 80 (1930).
Even so, it recognizes that the democratic government
of the states is a matter of federal interest. “[T]he
distinguishing feature of that form [of government] is
the right of the people to choose their own officers for
governmental administration, and pass their own laws
in virtue of the legislative power reposed in representative bodies, whose legitimate acts may be said to be
those of the people themselves ....” In re Duncan, 139
U. S. 449, 461 (1891).
When a legitimate state law is wrongly declared
illegitimate, a portion of a right recognized and protected by the United States Constitution has been
violated. That is an important consideration in determining whether to exercise this Court’s certiorari
jurisdiction. It is particularly important when there is
no where else to turn, when there is no other practical
remedy. “[R]eview by this Court, far from undermining
state autonomy, is the only possible way to vindicate
it.” Kansas v. Carr, 577 U. S. 108, 118 (2016) (quoting
Kansas v. Marsh, 548 U. S. 163, 184 (2006) (Scalia, J.,
concurring)) (emphasis in original).

24

CONCLUSION
The petitions for writs of certiorari should be
granted.
January, 2021
Respectfully submitted,
KYMBERLEE C. STAPLETON
Attorney for Amicus Curiae
Criminal Justice Legal Foundation

